<html>
<title> - MEETING TO DISCUSS THE STATUS OF THE INVESTIGATION INTO THE FL-13 CONGRESSIONAL DISTRICT ELECTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   MEETING TO DISCUSS THE STATUS OF THE INVESTIGATION INTO THE FL-13 
                    CONGRESSIONAL DISTRICT ELECTION

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION

    TASK FORCE FOR THE CONTESTED ELECTION IN THE 13TH CONGRESSIONAL 
                          DISTRICT OF FLORIDA

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             MEETING HELD IN WASHINGTON, DC, AUGUST 3, 2007

                               __________

      Printed for the use of the Committee on House Administration




                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
38-707                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             VERNON J. EHLERS, Michigan,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director

    Task Force for the Contested Election in the 13th Congressional 
                          District of Florida

                  CHARLES A. GONZALEZ, Texas, Chairman
ZOE LOFGREN, California              KEVIN McCARTHY, California


   STATUS OF THE INVESTIGATION INTO THE FL-13 CONGRESSIONAL DISTRICT 
                           CONTESTED ELECTION

                              ----------                              


                         FRIDAY, AUGUST 3, 2007

                  House of Representatives,
                               Election Task Force,
                         Committee on House Administration,
                                                    Washington, DC.
    The task force met, pursuant to call, at 10:00 a.m., in 
Room 1310, Longworth House Office Building, Hon. Charles A. 
Gonzalez (chairman of the task force) presiding.
    Present: Representatives Gonzalez, Lofgren, Ehlers, and 
McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Charles Howell, Chief Counsel; Janelle 
Hu, Election Counsel; Jennifer Daehn, Election Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; 
Daniel Favarulo, Staff Assistant, Elections; Fred Hay, Minority 
General Counsel; Gineen Beach, Minority Election Counsel; and 
Bryan T. Dorsey, Minority Professional Staff Member.
    Mr. Gonzalez. I call the meeting of the task force to 
order. I thought I would briefly go over a chronology to give 
us a proper background as to where we are today in order to 
receive this report from the representatives from GAO. On the 
23rd of March, 2007 the late and wonderful Chairwoman 
Millender-McDonald, established the three-member ad hoc 
election panel, two members of the majority and one member of 
the minority, to oversee matters relating to Florida's 13th 
congressional district election contest and recommend final 
disposition to the committee of that contest.
    I was appointed, as well as Representative Zoe Lofgren, to 
be the majority members, with myself serving as the Chair. On 
the 16th of April, Ranking Member Ehlers recommended 
Representative Kevin McCarthy as the minority member. On the 
17th of April counsel to the parties informally briefed the 
panel on the status of Florida election contest proceedings. 
Also present at that briefing was Congressman Dan Lungren from 
the minority. On the 2nd of May 2007 there was a public task 
force meeting to initiate an investigation of Florida's 13th 
congressional district election, and we authorized myself to 
secure the assistance of the Government Accountability Office, 
which was requested to design and propose testing protocols to 
determine the reliability of the equipment used in the Florida 
13 election taking into account recommendations by the 
contestant and contestee.
    On the 7th of June, there was an internal briefing and 
planning meeting of the task force and GAO to discuss GAO 
working plans. On the 14th of June, there was a public task 
force meeting to approve the GAO work plan. On the 27th of July 
there was an internal briefing and planning meeting of the task 
force members and staff with GAO to work on the plan and 
ascertain its progress. Today, the 3rd of August is our follow-
up meeting, our public meeting, to ascertain the status of the 
work being conducted by the GAO. The purpose of today's meeting 
from the Chair's perspective, of course, is basically a status 
report from GAO, any determinations that can be made at this 
time, what remains to be done, and also to establish a process 
for the task force to operate during the August recess.
    Anticipating that the work has not been completed by GAO 
they will require more time and there may be requirements or 
needs that will arise during the August recess during which 
obviously members must somehow establish a process where we can 
come together, even if it is by teleconference, in order to 
make some determinations and pass on those requests. Appearing 
before the task force today will be Naba Barkakati, senior 
level technologist; Gloria Jarmon, managing director, 
congressional relations; and Jan Montgomery, assistant general 
counsel.
    I believe that we will have a statement that is going to be 
read by Mr. Barkakati, but at this time, I would yield to the 
other members of the task force if they wish to make any 
opening remarks. And I would recognize the minority member, Mr. 
McCarthy.
    Mr. McCarthy. Well, I appreciate the chairman for 
recognizing me. I am excited about moving forward as we are. I 
appreciate the update you had given us last week. I will tell 
you from that update that I was very pleased to hear the 
relationship and the working relationship with everybody down 
in Florida from Sarasota to the State. It seems like they had 
open arms. Everybody wants to get to a conclusion here. And so 
I look forward to today's hearing and I yield back the balance 
of my time.
    Mr. Gonzalez. Thank you very much. And the Chair will 
recognize Ms. Lofgren.
    Ms. Lofgren. I would just like to get to the report so I 
will yield back to the chairman.



STATEMENTS OF NABA BARKAKATI, SENIOR LEVEL TECHNOLOGIST; GLORIA 
  JARMON, MANAGING DIRECTOR, CONGRESSIONAL RELATIONS; AND JAN 
             MONTGOMERY, ASSISTANT GENERAL COUNSEL

    Mr. Gonzalez. All right. At this time, the Chair will 
recognize Dr. Naba Barkakati.

                  STATEMENT OF NABA BARKAKATI

    Mr. Barkakati. Chairman Gonzalez, Mr. McCarthy, Ms. 
Lofgren, I am here today to update you on our progress 
regarding the Florida 13 voting system review. I want to begin 
by thanking the task force for its continued support of our 
efforts, and I also acknowledge the cooperation of everyone 
else involved in helping us get the document and information 
that we have needed to conduct the work so far. We have 
accomplished a lot in the past few weeks from the time when we 
agreed on the engagement plan on June 14, but we still have 
some work to complete before we can formally conclude any 
conclusions. To conduct our work, we have visited Sarasota 
County, Tallahassee, had discussions with Florida's Secretary 
of State, Division of Elections, and then we had talked to 
Sarasota County Supervisor of Elections, ES&S, the manufacturer 
of the system, and the team leader of the Florida system in 
Florida State University's source code review team, the one who 
looked at the iVotronic source code.
    By analyzing the detailed ballot data that we have received 
from Sarasota County we have verified that 1,499 iVotronic 
machines had recorded 119,919 ballots in the 2006 general 
election, and of these there were 17,846 undervotes in the 
Florida 13 race, which corresponded to a 14.88 percent 
undervote rate on the iVotronic machines. We examined the 
undervote by machine, precinct and ballot style, looking for 
any patterns. We have not yet noticed any apparent patterns, 
but are continuing with our analysis.
    While we have not completed reviewing all the testing that 
is done so far, there are some observations we can make at this 
time. Of the many different types of testing that one can 
perform in a voting system, we have focused our efforts on two 
types of tests that are called ballot testing and load testing. 
Ballot testing refers to the functional testing of the voting 
system focusing on the different ways in which the voter may 
make selections on the ballot and then cast a ballot with the 
iVotronic machine.
    Load testing subjects the voting machine to a large number 
of votes in order to verify that the system can properly handle 
the expected volume of ballots. Considering all the different 
ways that the iVotronic machine enables a voter to make 
selections and cast a ballot, we counted 112 different ways 
that the voter could make such selections, by navigating 
through the pages and casting the ballot in the Florida 13 
race, assuming that is the only race on the ballot. We found 
that the Florida certification tests, the Sarasota County's 
logic and accuracy tests, and the parallel testing that was 
done under the state audit of the Sarasota County election 
covered 13 of the 112 ways of the ones we enumerated. We have 
not yet assessed whether this is significant.
    Load testing was done as part of Florida's certification 
testing, but the ballots were machine generated using a testing 
feature built into the iVotronic machine, which means that 
users did not touch the screen to make selections and cast 
ballots. Again, we have not fully assessed whether this is 
significant.
    Last week we obtained access to the iVotronic source code 
under a nondisclosure agreement, and then were able to review 
the source code ourselves and verify some of the items that are 
reported in the Florida State University's review of the source 
code that was also done under Florida's audit of Sarasota 
County's elections. We plan to discuss the source code further 
with the audit team, as well as ES&S in the near future.
    One item to note from the code review report is that the 
review team did not convert the human readable source code into 
machine code, which we call object code, and compare the 
resulting object code to the certified version of firmware for 
the iVotronic machines that were used in Sarasota County. These 
steps would be necessary to assure that the reviewed source 
code corresponds to the firmware in the iVotronics. As part of 
our review of the State audit, we also examined the selection 
of sample machines for the parallel testing and the firmware 
verification. Ten machines were used for parallel testing, and 
the State audit had examined the firmware from six randomly 
selected machines. Our preliminary analysis indicates that 
these sample sizes were too small to apply the results across 
the board to all iVotronic machines that were used in the 2006 
general election in Sarasota County. For example, checking the 
firmware in six randomly selected machines is inadequate to 
conclude that the firmware was not compromised on any of the 
machines that were used in Sarasota County. I want to stress 
that these are just our preliminary observations. It is not 
clear to us yet whether these are items we think will need to 
be tested. For any further testing that we identify we plan to 
determine the relevance and the significance of the test, the 
test procedures, and estimate the resources needed and the time 
required to conduct the test.
    Besides analyzing potential tests, we are planning to 
examine the testing conducted by ES&S and identify other tests 
besides ballot testing and load testing that I had mentioned 
earlier that could be used to determine whether the voting 
system contributed to the undervote.
    Mr. Chairman, this concludes a summary of my written 
statement. I would be happy to respond to further questions 
that you and other members of the task force may have at this 
time. Thank you.
    Mr. Gonzalez. Thank you very much, Doctor.
    [The statement of Mr. Barkakati follows:]

    [GRAPHIC] [TIFF OMITTED] T8707A.001
    
    [GRAPHIC] [TIFF OMITTED] T8707A.002
    
    [GRAPHIC] [TIFF OMITTED] T8707A.003
    
    [GRAPHIC] [TIFF OMITTED] T8707A.004
    
    [GRAPHIC] [TIFF OMITTED] T8707A.005
    
    [GRAPHIC] [TIFF OMITTED] T8707A.006
    
    [GRAPHIC] [TIFF OMITTED] T8707A.007
    
    [GRAPHIC] [TIFF OMITTED] T8707A.008
    
    [GRAPHIC] [TIFF OMITTED] T8707A.009
    
    Mr. Gonzalez. Do either of the other representatives from 
GAO wish to address the task force? Ms. Jarmon.
    Ms. Jarmon. No.
    Mr. Gonzalez. And Ms. Montgomery.
    Ms. Montgomery. No.
    Mr. Gonzalez. Very good. I think I will start off with a 
couple of questions. And we have the luxury right now, I 
believe that the House is still in recess, so we are going to 
try to accomplish as much as possible. I do have some 
questions. Some of it is so technical, Doctor, I think at your 
briefing last week we tried to get into it. At the end of the 
discussion, I still have such a layman's understanding of what 
you really do in many different ways, but I want to start off 
with ballot testing.
    One concern that you have, and I want to preface everything 
that we go into today that you have not made a determination 
whether this is significant or insignificant. But let us start 
off with some of the areas of concern. Ballot testing, since 
only 13 of 112 different ways the voter could have made a 
selection in the Florida 13 race specifically is an area of 
concern, and I want to know why would it be a concern.
    Mr. Barkakati. I should probably say that we are trying to 
stay away from saying it is a concern. Mainly because it is 
just an enumeration of tests that you do. And in the end, we 
may decide or we may conclude from our deliberations that it 
really doesn't mean much and the functionality of the machine 
tested fine by doing the cases that were done. So in other 
words, the other possibility also remains that even though we 
have enumerated 112, and in reality it could make combinations 
that can grow even farther by considering other steps, so we 
may say that, well, that is extraneous and doesn't require to 
be done. So that is why we haven't said that it is a concern. 
And also we have kept in mind that between 13 and 112, all we 
are saying is different ways of selecting in a two-way 
situation in the ballot, and it probably won't be too time-
consuming to do, even if we were to raise it as an item.
    Mr. Gonzalez. I appreciate what you are saying. And the 
description that it is a concern is the Chair's description. 
And we could say it has--somehow it has drawn your attention. I 
don't know how else to say it. For a layman, if you say you 
have 112 variations of something, you think, well, you better 
test as many of those as you can. But that is not necessarily 
true when you get into the technical sense, and we will just 
wait for your expertise to be applied. Load testing, one thing 
that you indicated is that on the load testing, during the 
certification testing that it was machine generated, which 
means users do not touch the screen to make a selection.
    Neither the Florida audit nor Sarasota County's logic and 
accuracy testing performed load testing. We have not yet 
assessed whether this is significant. So again, this is 
something that has drawn your attention as to how you test, 
whether there is the human element, the actual touching and so 
on.
    Mr. Barkakati. Yes. The machine has a built in feature. It 
can say test for us, you know, casting 9,000 ballots. And it 
will do it for you by almost exercising as much of the software 
as it can, but excluding the part where you have touched the 
screen. So we were raising it as an issue that to truly test a 
machine for its ability to handle, you know, including the 
human element of entering the vote, it wasn't there. Basically, 
that is what the observation is. And it may turn out that it 
might be good to do so or maybe it is not, again, not a matter 
that needs to be pursued further.
    Mr. Gonzalez. The other item that you, and we are reading 
from your draft of course, is that one of the items noted in 
the report was that the review team did not, one, convert the 
source code to object code; and, two, compare the resulting 
object code to the object code that was used to run the voting 
machines in Sarasota County. Can you translate that?
    Mr. Barkakati. Yes. Essentially the software is in a 
programming language. They call it C, C programming language, 
primarily. And you can read it. A human can read it. I mean, 
you will be able to read it. There will be words that are like 
English like words, but of course they have a special meaning 
in the computer sense. And so programmers should write using 
that language, and that is what we would be reviewing if we 
were reviewing source code. And those programs are going to lay 
out the intent of the machine, like, you know, cast the ballot, 
do this or that. So we will be able to read through the logic 
and say, oh, this looks good.
    But of course, the machine doesn't run that. You would be 
using it though like something called Compiler or Linker or 
things that enable you to convert source code into binary, you 
know, ones and zeros that are not readable by us, but that is 
what the machine is going to execute. And that is the version 
that is going to be loaded into a chip.
    You know, they call it EPROM. That is like a flash memory. 
Where it can stay for--even if the power is turned off, it will 
stay on. And that is what the iVotronic always runs. So one of 
the problems we have is even when I review the source code I 
would like to know that what I reviewed was producing exactly 
the same binary, which it probably does for all I know, as what 
is in the machines. And all we are saying is that that step was 
not done.
    And we have talked to the team and they were saying that 
they were relying on other certifications of that. In other 
words, like independent testing already have done it. And we 
have not verified. I mean, it hasn't given us complete 
assurance that we have seen the steps performed and confirmed. 
Especially if you know how this is done. It is not going to be 
a lengthy, long-drawn process. If you had the tool, you could 
do it very fairly reasonably well. Within a day maybe you can 
complete it. So that is where we are wanting to see this done 
basically. And it wasn't done. But then again, if we find that 
the certifications that are provided by ITA, an independent 
testing authority, are maybe in our judgment it is okay, then 
perhaps it is all right. But I must say that even the code that 
I reviewed I was always wondering if that is--I mean, I would 
have liked to perform that step myself, except that you need 
those tools from the manufacturer. And we didn't have that 
available to do it immediately.
    And that is the only point we are making in that they are 
saying it wasn't done by the team and it was taken as a given, 
as an assumption. So there is nothing worth faulting the team 
for that. But it would be a critical step to complete to really 
have an assurance that, okay, the code was reviewed and it was 
really the same thing that drove the machine. That is the idea.
    Mr. Gonzalez. It was one of the more contentious points, 
and that is access to the source code. But my understanding is 
you have not really had any real objection gaining access. But 
we are working on, I believe, and Ms. Montgomery might be able 
to answer it, on the finalization of the confidentiality 
agreement, which will allow complete access and use of the 
source code as you have indicated you wish to do is that 
correct?
    Mr. Barkakati. Yes. I would start, and Ms. Montgomery can 
add also, yes, we were given complete access. We were not 
allowed to take the source code with us, which is 
understandable because it is a proprietary item. But we can 
look at it as long as we want, as much as we want, take notes 
on it. We have been able to do all of that. And for further 
discussions and further technical information, we do have work 
going on on another agreement, and perhaps you can add.
    Mr. Montgomery. I believe we have an agreement with ES&S at 
this point. In theory the team will be going down very soon in 
the next several weeks to Nebraska to access the internal 
testing information from the ES&S. So I would say we have had 
very good cooperation and we have access to the information we 
need to do this job.
    Mr. Gonzalez. Excellent. Thank you. One of the last points, 
and one that I sort of understand and I think, again, a 
layperson may understand, and this is going to be on page 5 of 
your draft report: As a part of our review of the State audit, 
we examined the selection of samples for the parallel testing 
in the review of the Sarasota County election practices. Our 
preliminary analysis has found that these sample sizes are too 
small to support generalization of the results to the overall 
population. Now, to a layperson that simply means you have 
1,500 machines that were used here in the election and that a 
certain number were actually utilized for testing and so on. 
And further you say: Our discussions with Florida officials 
indicate that such limitations resulted from court imposed 
restrictions on machine access and resource considerations are 
performed in the testing. So is it really the number of 
machines that were tested? How many out of the 1,500 at this 
point?
    Mr. Barkakati. Well, as it mentions here, 10 machines were 
used for parallel testing. But if you remember what happened is 
that they tested five machines that were not used in the 
election, and five from the set that was used in the election. 
Now, to pick the machines that were not used in the election 
they only had a very few left over. They didn't have the choice 
to pick from a large population.
    So what I am trying to say is that there was such a small 
set of machines that were not used in the election that they 
could only pick five out of that. And then, of course, that 
forced them to do five on the other side to keep it the same. 
So they were not thinking from the point of I guess 
generalizing using statistical methods and all to the whole 
population.
    Now, to say one thing in a clarification is that if you 
want to make a statement about the whole population of 
machines, then you have to kind of explain how much confidence 
you want, you know, say 99 percent confidence, and how much 
error you are willing to tolerate, meaning how many of those 
machines, what percentage might still not conform to your test 
and you are okay with that.
    Say, if you want to say with 99 percent confidence out of 
1,499 machines, I want to be able to say that only 5 percent at 
most have an error. You know, whatever the condition is; error 
in testing or error in not having the right version, it doesn't 
matter. Then the selection would be something like our 
statisticians say, 89 machines have to be tested.
    So all we are saying is that if you wish to kind of make a 
conclusion that, okay, we tested the machines and they are all, 
say, don't have any problem, then you have to pick 89 and 
perform the test. And at the end all you are able to say is 
that with 99 percent confidence, I know that only 5 percent at 
the most may have an error, so 95 percent is okay, you know, of 
the population. And based on if things seem normal, the 
machines may be different levels of the confidence and 
different levels of error, but you have to set those things and 
pick a sample and then your conclusions can be essentially 
statistically significant and everybody can agree that, yes, 
they have tested thoroughly. That is the reason for raising the 
issue.
    Mr. Gonzalez. Thank you. And the last thing I want to point 
out on page 5, you said there may be some other causes, and we 
covered this in our briefing last week. One would be the 
effects of provisional ballots. And we understand provisional 
ballots. The other thing that you said was environmental 
conditions. And in last week's meeting, I didn't know what you 
meant by environmental, and you pointed out temperature. And 
that is, for instance, the machines can operate according to 
certain tolerances, such as temperature and such. When you say 
environment to a layperson, sometimes we think, you know, real 
life conditions. In other words, where they were placed, how 
long they were sitting there, the angle that people had to 
press their selections and such. But that is not what you mean. 
Environment is something entirely different?
    Mr. Barkakati. I think either of those factors can come in 
the primary environment of things or more like to be able to 
handle shock, vibration, humidity and temperature. Those are 
the kind of things that come into play there. And those things 
are done particularly by the independent testing authority. So 
we may very well conclude that that part is taken care of and 
we don't need to worry about it. But that is what we meant in 
that instance.
    Mr. Gonzalez. All right. Thank you. And that concludes my 
very long number of questions. But I know that the other 
members of the task force at this time will have questions. And 
I do want to welcome the ranking member of the full committee, 
Mr. Ehlers. Good morning.
    Mr. Ehlers. Thank you.
    Mr. Gonzalez. And at this time the Chair will recognize Mr. 
McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman. Just a couple 
questions. Do you have any determination currently about how 
far along you are in doing the report. I mean, are you 20 
percent along. Could you put a percentage to it?
    Mr. Barkakati. I probably couldn't put a percentage, but I 
should say in terms of our four objectives that we laid out, 
the preliminary ones like looking at of course the first part, 
the first two are basically figuring out what systems are used 
and how they are used. I would say that part is done. We have 
gotten all the information from everywhere to figure what 
machines were used, how and all that. The second, including 
the--we are still analyzing, though, the level of problem, like 
undervote pattern, et cetera, is not completely done. We have a 
little left there.
    Looking at the previous testing was one of the things. You 
know, like previous testing by manufacturer, by Florida State 
and then Sarasota County. We have not looked at the 
manufacturer testing, but we will be looking at that by August 
15 or so. Which means that could get done soon. And that will 
settle questions like whether they have maybe internally tested 
certain things that we haven't seen elsewhere and we could 
check them off. But I would say the most important thing that 
is remaining are the things that we say here that we have not 
determined the significance of, to have an internal discussion 
and deliberation to figure out if it is important or not, and 
whether we should raise them to the level of tests to be done.
    And then, of course, the figuring out whether, you know, 
how much time is needed, how much resource, so we have some 
information to decide whether even to go forward; if it is cost 
prohibitive or resource prohibitive, then you cannot do it.
    So in other words, mostly the fourth item where we say 
figure out what tests might be needed and come back to us with 
detailed information about them is the ultimate biggest thing 
remaining. So I am not putting a percentage, but we are 
devoting our time to basically checking out the testing at ES&S 
and doing our own internal deliberations and discussions to 
figure out the testing we should be, minimum or more testing 
that we will be proposing to you or listing to you with 
information that might help you decide whether you do it or 
not. And again with the caveat that maybe this is something to 
say, all checked out there is nothing much you can propose. 
That is a possibility.
    Mr. McCarthy. Now, you have also studied the audit that the 
State did and you have spoken to some of the PhDs that did the 
study as well. Is that correct?
    Mr. Barkakati. Yes. And we did say very briefly that we 
were able to verify certain, like things that they talk about, 
like the user touches the screen and this is how the vote gets 
cast. We could check a few sequences of code and check what 
they say about the code. And they, of course, match what they 
say.
    Mr. McCarthy. So you have a check and balance of that?
    Mr. Barkakati. Yes. We didn't check all the details of it, 
and we are going to do a little more. And as a matter of fact, 
they also have been very responsive and he has, the leader has 
offered to help us out if we need to; in other words, because 
they have already gone through. Although we were trying 
initially somewhat more to do on our own to be independent and 
see on our own what is there.
    Mr. McCarthy. Now, you are so far along and you have done 
the analysis. Is there anything out there that makes it drive 
you in a different direction? Is there, for no better word, is 
there a smoking gun? Is there something out there that says, 
hey, this is the problem already?
    Mr. Barkakati. So far, I would say no, other than the 
things that we raise as far as sample of the machines, you 
know, like are not adequate and all. Those are more along the 
lines of being able to say the same thing that there is no 
smoking gun. Sure.
    Mr. McCarthy. You just take them away.
    Mr. Barkakati. Right.
    Mr. McCarthy. And one thing, and I just draw on what the 
chairman said, you have these 112 ways and only 13 of them had 
been tested. And that kind of raised a question to me last 
week. And when I probed further, I was wondering why the State 
did these 13. And it was described to me the reason you did 
these 13 is because the contestee, Ms. Jennings, argued that 
there was something wrong. These 13 are the top analysis if 
something went wrong and denied Ms. Jennings a vote, these 13 
would show it. That is why they didn't test 112 because these 
others that could be left would mean if something went wrong in 
these other tests, it would give Mr. Buchanan more votes, and 
he was already in the lead, so why would we test for the sake 
of saving money, I guess, is that correct?
    Mr. Barkakati. Basically, the reason for our number being 
higher is because we think of like, well, the voter could go 
forward and press the page back key and change it again or 
change it from the review screen. There are multiple options of 
doing things. When you take all the combinations it becomes 
larger. Now, I would agree that they were primarily making sure 
that Ms. Jennings could get votes, no matter how you went. And 
that is what the rationale was given to us. And in that 
scenario, there could still have been a few more to check the 
other side, which is like you know, maybe Mr. Buchanan could 
also be given votes by changing and that would raise it to, I 
think, 18 or something like that instead of 10.
    Mr. McCarthy. But these were the top 13?
    Mr. Barkakati. Yes.
    Mr. McCarthy. And you are testing everything, so it could 
come back that maybe Mr. Buchanan got more votes?
    Mr. Barkakati. I should really kind of emphasize that those 
tests are going to only confirm that each party is able to get 
votes and no problem. And the logic and accuracy test that the 
counties do is also geared towards making sure that every 
candidate on the list in any race is able to get a vote by the 
machine. They cast it and confirm that it happens.
    Mr. McCarthy. Now, you say you have looked at the source 
code. And then when we talked last week, you have your own 
expertise when it comes to programming and a few others. Was 
there anything looking at this source code, I know you haven't 
been able to run it because you are getting the agreement, 
anything shoot at you just understanding programming and 
others?
    Mr. Barkakati. No. As a matter of fact just as the other 
team, the Florida State University team that had looked at the 
source code, their conclusion was it is a simple program that 
is a very sequential processing of what happens, like a user 
touches something it keeps on checking, and it determines what 
the vote is, marks it and saves it when you press the vote cast 
button.
    So in that sense, I found the same exact thing. It was 
readable. It wasn't hard to read or understand. And it was 
simple enough to follow that logic essentially. So nothing 
jumped out when I looked at the source code.
    Mr. McCarthy. So when you looked at the source code you got 
by looking at it the same thing that the PhDs that looked at it 
from the State and the court did.
    Mr. Barkakati. Yes. Because they did point out anything 
that they saw in terms of like other flaws and all in a 
proprietary appendix which wasn't released to the public, and 
we could see those also. Partially we looked at some of those 
too. Because they pointed out certain things that are not 
pertinent to undervote. But we will explore that a little more. 
If you recall, there were three appendices that were not 
released to the public. And they included more information, but 
they were saying that is not pertinent to an undervote problem, 
and we have been looking at that as well.
    Mr. McCarthy. Normally, and you may not be able to answer 
this, but for our scheduling I know there is a motion that is 
going to come forward, and we are going to a district work 
period for the month of August. Do you believe you may have the 
final report during August when we are out? Do you foresee that 
happening?
    Mr. Barkakati. I really think that we would require--I 
mean, since it is only a month we will require this time to 
really do our--there is a little bit of work remaining to 
figure out testing done by ES&S and talk to some of the code 
review team again. So it looks like that most likely it don't 
happen that the report will be done.
    Mr. McCarthy. The only reason why I ask is mainly for 
scheduling. I want to make sure we have our public meeting with 
them when that comes back. I am actually very pleased with how 
everybody is working together. And it sounds like everybody 
wants to get to a conclusion down there. And that is nice to 
know from the manufacturer down to the election officer. So I 
appreciate your work. I yield back, if I had any time left.
    Mr. Gonzalez. Thank you very much. The Chair will recognize 
Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I think you have 
asked all of the substantive questions I had. The only, I 
guess, remaining question I have, is there anything we could do 
to help you conclude this, any effort that we could make that 
would assist you in getting this job done efficiently and as 
soon as possible.
    Mr. Barkakati. I would say that the task force was very 
helpful when they initially told everyone they needed 
everybody's cooperation. And we have not really had any problem 
with anyone. So it seems that we are in touch with the staff, 
and nothing is there right now that is holding us back, other 
than the mere fact of like looking through everything and 
deciding on our own. So it is a deliberative process a little 
bit. And that is kind of expected that you would have to do 
that. So I would say no. If I am wrong and we turn out to be 
needing some help, I think we know how to--
    Ms. Lofgren. You know how to get ahold of us.
    Mr. Barkakati. Yes.
    Ms. Lofgren. That was the only question I had. I think 
obviously we don't know the answers yet, but we are on our way 
to getting whatever answers can be obtained. And that is all we 
hope to do in an objective, fair and expeditious manner. So I 
think that this is a good meeting and a good report. We all 
wish it were over, but it isn't yet. I don't know if Mr. Ehlers 
has comments. I have a motion I would like to offer at the 
appropriate time.
    Mr. Gonzalez. Thank you, Ms. Lofgren. The Chair recognizes 
the ranking member.
    Mr. Ehlers. Thank you very much, Mr. Chairman. I am sorry I 
was late, but I skimmed through the report. There is just one 
point I want to raise, and it looks like you are on track and I 
appreciate your good work on this. I have been involved in 
elections since 1974, which shows how ancient I am. And I was 
also involved in writing HAVA. In fact, I wrote the very first 
part, which was the standards part. And I emphasized to NIST 
when we did this, and we did require this is in the 
requirements, and that was the human factors.
    Because I had observed during my many years working with 
elections, the majority of errors are human errors, they are 
not machine errors, they are not equipment errors, they are 
human errors. And that we try to accommodate that in HAVA. I 
don't think we did it nearly as well as we should have, and 
certainly not as well as I wanted to. But we did do some of 
that. And running through your draft here and the discussion I 
have heard the short time I have been here, it is almost 
entirely about the machines; was the source code okay, was the 
object code okay, was the machine operating properly and so 
forth. I didn't hear a word about the human factors, which 
based on my experience I would think would have to rank higher 
in probability than either the machine or the source code 
errors.
    What have you done on the human factors part? Do you have 
expertise in GAO or are you using experts in GAO to analyze the 
possible human factors in this case?
    Mr. Barkakati. It is true that we have not addressed the 
human factors issue yet here. And of course, we are aware of 
quite a few other studies where they have looked at the human 
factor and kind of tried to draw attention to the fact that 
there are similarities in other counties of similar--layout of 
ballot and where they might have had undervotes, higher rates 
like this one. We were trying very hard to eliminate, you know, 
stay away from the human side because it is so--you know, we 
couldn't really figure out how to completely quantify that 
basically. But I would agree completely that there are--I mean, 
it is very much possible that the whole reason was human 
factors. And right now I should say that we are trying to--we 
have not addressed it since a lot--there have been a lot of 
people who have raised the issue.
    We consider--we would probably have to consider this as we 
go forward and before we issue a final report as an element, 
whether either explicitly to say that we are unable to or we 
could not or did not or something else. You know, that we 
considered it. And maybe you can propose something that can be 
done in that phase too. But we have not done much other than 
reading the reports that are already out there.
    Mr. Ehlers. I would strongly encourage you to. Because as I 
said, based on my many years of experience that is the most 
frequent problem. It is not the least likely, it is the most 
likely. And I would consider the report terribly incomplete if 
you don't get into that as much as you are able to or if we 
need other experts to look at that. I myself, when I saw the 
ballot for the first time, I missed this slot. I went right to 
the ballot and I missed it. Now, I know there are safeguards, 
you can go back and it catches you and so forth. I am not 
dismissing that. But I have been around this business a long 
time and I totally missed that line. I am not saying that is 
the cause. I am just saying that has to be examined along with 
all the physical parameters. You do have to look at the human 
factors, whether you have to get outside help or not. But that 
could be a crucial part.
    Now, if you find a lot of other errors, then you have the 
real problem of deciding which it might be. But if you don't 
find other problems, that is certainly one to look at. And I 
would very much appreciate a detailed study of that. Again, I 
don't know to what extent NIST has expertise on that either and 
whether they could be of any help. But it is certainly an 
issue.
    Mr. Barkakati. And we probably have to--we at least can try 
to find out expertise wise who we might be able to consult on 
this. I would say that obviously we cannot probably complete 
looking at the human factors within the remaining time. But as 
a factor to be considered, that is certainly a possible way to 
handle it.
    Mr. Ehlers. I recognize full well some of this would be 
almost impossible to determine. For example, one newspaper 
article I read speculated that the undervote was because the 
primary was so nasty and some people were angry and said I am 
not going to vote for either one. Well, there is no way you 
could even measure that. But I think there are a number of 
factors that you can determine actually by experiment with 
groups of people to see if they were factors or not. Thank you 
very much. I yield back.
    Mr. Gonzalez. Thank you very much, Mr. Ehlers. A couple of 
real quick points. We had already approved pretty much what the 
plan was going to be. And I know that GAO felt it was necessary 
to go into certain areas to get the background information on 
how the election was conducted in the preparation of the 
machines, the instructions and so on. To the extent that human 
error may come and play into it, the only thing I would caution 
again is that we stay with the operating plan, number 1. Number 
2, not to go beyond the scope of it, because the resources, 
time and energy, of course, are precious to all of us.
    And lastly, that the burden really does rest with the 
contestant in this case. And on June 22, the representatives, 
the attorneys for the contestant and the attorneys for the 
contestee provided this task force with information they felt 
was necessary for GAO to take into consideration. These are 
recommendations, suggestions, some sort of guidance. To the 
extent that you believe they are relevant, to the extent that 
you would believe they needed to be addressed, that was going 
to be basically left up to you. I think the whole focus from 
the very beginning, whether it is the actual notice of contest 
to the June 22 submissions by the attorneys, really truly focus 
on the machines and the malfunctioning of the machines.
    So that is the only caveat. And I understand what Mr. 
Ehlers is saying. The only thing at this point, you know, how 
relevant it is going to be for us to resolve this particular 
issue predicated on the grounds as asserted by the contestant. 
But I want to make sure, again, for both sides, the contestant 
and the contestee, you have had for your review and such the 
submissions by the attorneys representing the parties, is that 
correct?
    Mr. Barkakati. Yes. And I should quickly add that you are 
right, our plan actually has been very specific to say that we 
are focusing on whether the machine contributed. And you know 
as much as in that scope of course it doesn't appear, the human 
factors doesn't appear as an item. On the other question of 
contestant and contestee submissions, yes, we do have access to 
those and we have reviewed those. And in our deliberation of 
deciding what is going to be done or not done, all those are 
factors to take into account. That whatever the contestant or 
contestee is suggesting, that testing be done or not done are 
factors that come into play in deciding what the final answers 
are for what it is that could be done to figure out if the 
machines contributed to the undervote.
    Mr. McCarthy. Will the gentleman yield?
    Mr. Gonzalez. Thank you very much, Doctor. Sure, I will 
recognize Mr. McCarthy.
    Mr. McCarthy. The only thing I would say, I have a 
transcript here from our first discussion when we were going 
through what the GAO was going to do. And I raised the question 
because I think I actually had a motion to put in ballot 
design. And the response back was, from the GAO, the ballot 
design is part of the machine. Obviously at this point, we are 
going to look at that. So, I mean, I think that was just going 
in regards to what Mr. Ehlers was saying, that that goes into 
the whole GAO report as well. Just for clarification.
    Mr. Barkakati. Yeah.
    Mr. Gonzalez. All right. Anything further?
    Ms. Lofgren. I have a motion, if we are ready.
    Mr. Gonzalez. The Chair will recognize Ms. Lofgren for the 
purpose of making a motion.
    Ms. Lofgren. After consultation with Mr. McCarthy, I 
believe this is acceptable to all of us. I move that the 
chairman be authorized and directed to consult the task force 
by teleconference or other appropriate means to consider any 
GAO request received during the district work period and 
determined by the chairman to require task force concurrence. 
For the purpose of consultation as described in this motion all 
members of the task force must be in simultaneous contact.
    To preserve our open process, any consultation under this 
motion will be made open to the public and press through 
teleconference or web technology in the House Administration 
Hearing Room. No final disposition of the underlying Florida 
District 13 election will be made pursuant to this procedure.
    Mr. Gonzalez. The motion has been made.
    [The information follows:] 
    [GRAPHIC] [TIFF OMITTED] T8707A.010
    
    Mr. Gonzalez. Any discussion? All right. All in favor 
signify by saying aye. Aye. Any opposed? Around here you never 
know. Some people vote yes before they vote no and so on. The 
task force meeting stands adjourned. Thank you.
    [Whereupon, at 10:42 a.m., the task force was adjourned.]

                                  <all>

</pre></body></html>
